No. 20-1453
In the

6uprente Court of the ZiElniteb States

CAL CARTAGE TRANSPORTATION EXPRESS, LLC, et al.,
Petitioners,
v.
THE PEOPLE OF THE STATE OF CALIFORNIA, et al.,
Respondents.
AFFIDAVIT OF SERVICE

I hereby certify, under penalty of perjury of the laws of the State of California, that
all parties required to be served have been served and that three copies of the Brief for the
Western States Trucking Association, as Amicus Curiae Supporting Petitioners were served
on the parties listed below on June 3, 2021, by depositing them in envelopes with a thirdparty commercial carrier.

Joshua Seth Lipshuts
Gibson Dunn & Crutcher LLP
333 South Grand Avenue
Los Angeles CA 90071
Danielle Luce Goldstein
Office of the Los Angeles City Atotrney
200 N. Spring Street, 14th Floor
Los Angeles, CA 90012
John R. Bagileo
Law Office of John R. Bagileo
15292 Calloway Court
Glenwood, MD 21738

Kay Nord Hunt
Lommen Abdo P.A.
1000 International Center
920 Second Avenue South
Minneapolis, MN 55402

June 3, 2021

R)z OASL_
Patrick Whalen

